                      CLOSEOUT - M90040019



The attached letter dated April 29, 1992, to
from Dr. James J. Zwolenik constitutes closeout of this case.   I
                     NATIONAL SCIENCE FOUNDATION
                            1800 G STREET,N W
                          WASHINGTON.D C 20550




      OFFICEOF
  INSPECTORGENERAL

                            APR 2 9 1992




Personal and Confidential                          Certified Mail




--
Dear
This is in response to your letter of April 9 , 1990, in which you




'Program bfficer, d      '    b     , before he had the Genefit of
another N S F internal review. Your complaint is based on the fact
that the N S F Form 1036 "Action Processing Form" pertaining to your
proposal indicates a recommended declination- b
           while another internal review of your proposal is
                . We concede that the appearance of these facts in
isolation could suggest an irregular handling of this proposal.
However,               recommendation was not determinative as you
will see from what follows.
Background

                     are exempt from external peer review.          The
                      component that was added to the
                     roposals                                 It is
intended to provide
detailed planning that is necessary to prepare a competitive
research proposal for subsequent submission to the Foundation. The
actual merit of the research is not evaluated in the planning
grant. The NSF requirements for review of planning grants involve
internal evaluation by m t a f f and by other N S F program officers
in the research directorates, as appropriate.
\.
     U
           Results
           We found in our review that -was           helpful to you when he
     /I    suggested you amend the planning grant proposal you initially
           submitted because it omitted key information explicitly required in
           the proposal preparation section of the-program      Announcement.
     II
           We note that            had no obligation to take the time to do
           this.   Had he not, your proposal would have been returned as
           "inappropriate."
          The NSF Form 1036 requires two signatures for completion and final
          action:   In this case, Form 1036 was signed and dated June 16,
          1989, by -and             on November 6, 1989 by the NSF Division
          Director. A research program officer's internal. review is dated
          July 18, ,1989. The NSF Form 7 ItReviewAnalysisttwas written by a
          .) ;program officer                  successor)-and is dated October
                                 f
          1989. While there are many o m s involved in processing proposals,
          NSF Form 7 is the m r o g r a m officer's final recommendation to the
     i
          cognizant approving official, in this case the division director.
          The declination was approved by the 1        )Division Director on
          November 6, 1989.       Thus, the successor NSF program officer
          recommended that your proposal be declined in October
          taken into account all internal reviews, and the      &    89, having
          Director, who had final authority, made a final decision for
                                                                       Division
          declination on November 6, 1989. Final action on your proposal
          occurred on November 6th.
                    left NSF                                       Thus, it is
           not posslble to e x p m a i n why he signea tne Form 1036 a
           month prior to the date on the research program officer's second
           internal review. From the date on Form 1036, we have concluded
                          clearly recommended declination for your proposal.
                                        was his alone in anticipation of his
           leaving NSF or whether he had oral input from the program officer
           in the relevant research area is uncertain. What is certain is
           that NSF1s required second-level of approval by the division
           director for final action did not come until November 6, 1989.
           That approval had the benefit of all reviews. Having reviewed the
           whole process as summarized above, we found that NSF1s final
           declination action complied with established procedures for final
                                             internal review occurred and was
                                      June 16, 1989 recommended declination
           stands.                            was not accepted by his division
                                               took place. It is incorrect to
           say your proposal was declined before review was complete. The
           division director's supervisory action assured that final action
           was based on the required reviews. Thus, upon thorough examination
           of this matter we have determined that overall your proposal was
           handled properly by NSF.    We have now closed this matter.
                             -
                          <Fi'
                  By this response, we are also acknowledging your letters to this
.      H
    -i',;
             i.




        I
                  within the jurisdiction of this Office. You should address your
                  concerns directly to the cognizant NSF program office and to the
                  NSF Office of Information and Resource Management, respectively.
        I;
                                                    Sincerely,




                                                    James J. Zwolenik, Ph.D.
                                                    Assistant Inspector General
                                                      for Oversight
